                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: A09030024
                                                                                 11          Page 1 of I



                  We discovered that an REU proposal submitted to NSF' contained a small amount of text
          apparently duplicated from a funded proposal2provided pursuant to a FOIA request. Most
          duplications appear within snippets scattered through the background and evaluative sections of
          the proposal, and separated by original text. The subjects acknowledge the source of the
          duplicated text is the previous proposal, and draw parallels between the nature of the two
          schools, and the logic of following a workable template for REU student applications, mentoring
          and evaluations. The subjects acknowledge that they should have specifically referenced the
          prior proposal and its authors. The subjects state that they will voluntarily work with more senior
          faculty to oversee the proposals that they submit in the future, and that they will pursue proposal
          preparation training. We reminded them of their obligation to demonstrate high standards of
          scholarship in the preparation of their NSF proposals.

          Accordingly, this case is closed.




           ' Redacted.
            Redacted.



 NSF OIG Form 2 (1 1/02)
